                                                                                  Legal Services Corporation
                                                                                  Office of Inspector General




Inspector General
Jeffrey E. Schanz
                                             MEMORANDUM

    TO:              Helaine Barnett
                     President

    FROM:           Jeffrey E. Schanz
                    lnspector Gene

    SUBJECT:        Audit of LSC's Consultant Contracts

    DATE:           July 7, 2009


    Attached is the Office of lnspector General's final report on the audit of LSC's consultant
    contracts. Your comments on the draft of this report are included in Appendix Ill.

    The report makes 13 recommendations for improving internal controls over LSC
    consultant contracting practices. Your response to the draft report described actions on
    all recommendations. The OIG was not able to fully evaluate all management actions
    pending receipt of information, such as the opinion of outside counsel, and details
    regarding planned management actions. The OIG considers all recommendations open
    pending receipt and evaluation of additional information and management actions, with
    the exception of Recommendation 10, which the OIG considers closed because
    appropriate management actions were completed.

    Please provide this office a copy of the revised Administrative Manual and the opinion of
    outside counsel regarding the classification of individuals as independent contractors
    versus employees. Also, please provide us with evidence of actions taken on each
    recommendation.

   If you have any questions or need additional information, please contact me on
   extension 1677. Thank you and your staff for the cooperation and courtesy extended to
   the OIG auditors.

   Attachment

   cc :    Victor Fortuno
           Vice President for Legal AffairsiGeneral Counsel/Corporate Secretary

           Charles Jeffress
           Chief Administrative Office1
                                                                                  3333 K Street. NW 3rd Floor
           Karen Sarjeant
                                                                                  Washington, DC 20007-3522
           Vice President for Programs and Compliance                             Phone 202.295.1660 Fax 202.337.6616
   LEGAL SERVICES CORPORATION
   OFFICE OF INSPECTOR GENERAL




          AUDIT OF
LEGAL SERVICES CORPORATION’S
   CONSULTANT CONTRACTS




         Report No. AU09-05

              July 2009
            www.oig.lsc.gov
                             EXECUTIVE SUMMARY
Audit Process: The Legal Services Corporation (LSC) Office of Inspector General
(OIG) determined whether appropriate internal controls over consultant contracts were
in place and properly followed, and determined whether consultant contracting actions
were in compliance with applicable laws, regulations, and LSC policies and procedures.
Audit fieldwork was conducted from January through April 2009.

Results in Brief: Controls over consultant contracts were generally adequately
designed; however, application of the controls was not enforced. LSC’s written policies
and procedures over the consultant contracting process were not regularly followed,
resulting in instances of noncompliance.

LSC needs to strengthen internal controls over consultant contract actions by
documenting contracting decisions, evaluating contract alternatives, and establishing
procedures to monitor contractor compliance with contract provisions.

LSC may have entered into independent contractor agreements with individuals who
should have been classified as employees under IRS rules. As a result, LSC could be
liable for fines, penalties, and additional payments to workers.

LSC did not comply with its policies and procedures over the consultant contracting
process. Specifically, competition requirements were not followed, required approvals
were not obtained, required basic information was not used in some contracts, forms to
control the contracting process were not used, purchase orders were not always
prepared, and contracting records were not properly maintained.

Recommendations: The OIG made 12 recommendations to strengthen controls and
ensure compliance with LSC policies and procedures. The OIG also recommended that
management expeditiously resolve the issue of the status of LSC consultants as
independent contractors versus temporary employees because of the potential financial
risk that misclassification poses for LSC.

Management's Response: Management comments indicated that management will
take action on all recommendations. Management also noted in its comments that the
report did not question any costs. The full text of management comments can be found
at Appendix III.

OIG Evaluation of Management's Response: The OIG was not able to fully evaluate
all management actions pending receipt of information, such as the opinion of outside
counsel, and details regarding planned management actions. The OIG considers all
recommendations open pending receipt and evaluation of additional information and
management actions, with the exception of Recommendation 10, which the OIG
considers closed because appropriate management actions were completed.



                                           i
While management's comment that the report questions no costs is accurate, the
relevant cost issue is not what was spent in the past, but what must be spent in the
future to correct any misclassifications. LSC could be liable for fines, penalties, and
additional payments to workers. These costs could be significant.

The OIG's evaluation of management comments for each recommendation can be
found in the report following the recommendations and associated management
comments section. The OIG's overall evaluation of management comments can be
found at page 23 of the report.




                                           ii
.
                                         TABLE OF CONTENTS


BACKGROUND ........................................................................................................1

OBJECTIVES, SCOPE, AND METHODOLOGY.......................................................2

OVERALL EVALUATION ..........................................................................................3

RESULTS OF AUDIT ................................................................................................3

I. INTERNAL CONTROLS OVER CONTRACT ACTIONS......................................4

    A. Documenting Contract Decisions ...................................................................4
       Recommendations..........................................................................................5
    B. Evaluating Contract Alternatives.....................................................................7
       Recommendation ...........................................................................................8
    C. Establishing Additional Controls Over Contract Payments.............................9
       Recommendations........................................................................................10

II. COMPLIANCE WITH LSC CONTRACTING POLICIES AND PROCEDURES ..11

    A. Contracts Not Awarded Competitively ..........................................................11
          Competition Requirements......................................................................11
          Requirements Not Followed ....................................................................12
    B. Required Approvals Not Obtained ................................................................13
    C. Required Basic Information Not Used in Contracts ......................................15
    D. Contract Approval Form Not Used ...............................................................16
    E. Purchase Orders Not Prepared ....................................................................18
    F. Contracting Records Not Managed Properly ................................................19
    Recommendations .............................................................................................20

III. OIG EVALUATION OF LSC MANAGEMENT COMMENTS..............................23

Summary of Documentation Independent Contractor–Employee Issue .... Appendix I

Purchase Order Requirements................................................................. Appendix II

LSC Management Comments ................................................................. Appendix III
                                 BACKGROUND

Legal Services Corporation (LSC) contracting policies and procedures are contained in
Chapter 1 of LSC’s Administrative Manual. This chapter was last revised in February
2005. It is organized as follows:

      Part I – Definitions and Policies
      Part II – Procedures for Procurement of Goods
      Part III – Procedures for Contracting for Services
      Sample LSC Contract Approval Form
      Contract Originator’s Contracting Procedure Outline

Most of LSC’s consultant contracts are executed by the Office of Compliance and
Enforcement (OCE) and the Office of Program Performance (OPP). OCE contracts with
individuals to assist OCE staff in conducting visits in which grantees’ records and
activities are reviewed to ensure compliance with various LSC requirements. OPP
contracts with individuals to assist OPP staff in conducting visits in which grantees’
records and activities are assessed against LSC Performance Criteria. OPP also
contracts with individuals as part of the grant competition process and in connection
with the Technology Initiative Grant (TIG) Program to review grant applications and
provide technical support. For the 2-year period of our review, LSC made payments on
approximately 350 consultant contracts valued at approximately $1.7 million.

Prior Audits

A January 6, 2009 Independent Public Accountant (IPA) audit of LSC’s 2008 financial
statements contained a finding dealing with classifying certain workers as independent
contractors and recommended that LSC

      …engage outside legal counsel to review this matter and consider
      obtaining a legal opinion or explore other options, such as submitting form
      SS-8 Determination of Worker Status for Purposes of Federal
      Employment Taxes and Income Tax Withholding to the IRS, to ensure that
      LSC is fully compliant with this area of the Internal Revenue Code.

LSC Management responded that once the Office of Legal Affairs (OLA) completed its
analysis of the use of consultants and the Office of Inspector General (OIG) completed
its review of LSC’s contracting practices, LSC will obtain advice from outside counsel
and make any necessary modifications to its practices. In April 2009, LSC Management
indicated that outside counsel was currently analyzing this issue.

In 1995 the OIG issued an inspection report entitled “Contract Service and Related
Expense Payments.” The report recommended that “…the Corporation review its
practices with respect to classification of independent contractors to ensure that such
practices comply with the Internal Revenue Code and the Corporation’s policies.” The
LSC Management response indicated that it took action to reclassify one independent


                                          1
contractor as an employee and “…would also consult tax counsel with regard to
classification of other consultants.” LSC researched its records and has not been able
to locate any analysis prepared by outside tax counsel related to this issue.


                   OBJECTIVES, SCOPE, AND METHODOLOGY
The objectives of the audit were to determine whether appropriate internal controls over
consultant contracts were in place and properly followed, and to determine whether
consultant contracting actions were in compliance with applicable laws, regulations, and
LSC policies and procedures.

To accomplish our objectives, the OIG reviewed the internal controls over the award
and administration of consultant contracts. To obtain an understanding of these internal
controls, the OIG reviewed LSC policies and procedures, including any relevant
manuals, guidelines, memoranda, emails, and directives setting forth current LSC
practices.

The OIG interviewed LSC officials to obtain an understanding of the internal control
framework and the officials’ knowledge and understanding of the processes in place.
Applicable laws and regulations pertaining to LSC contracting were reviewed. In
addition, Federal contracting policies were reviewed, such as the Federal Acquisition
Regulations (FAR), to identify best practices that could be adopted by LSC.

A judgmental sample of 38 consultant contracts for which LSC made payments in FYs
2007 and 2008 was selected for review.1 Documentation maintained in contract files
was reviewed and LSC officials were interviewed in order to assess compliance with
LSC policies and procedures. The OIG relied on LSC’s Transaction Listing By Account
Report – Consultant Account – to identify the universe of consultant contracts from
which a sample was selected. (Audit tests were not performed on the general or
application controls over the automated system that produced the reports.) Retainer
agreements with outside counsel were excluded from the sample. The sample of 38
consultant contracts represented approximately 10 percent of the approximately 350
consultant contracts for which LSC made payments in FYs 2007 and 2008.

This performance audit was conducted in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on the audit objectives. We believe that the evidence


1
 One of the contracts was entered into in October 2008 (FY 2009). Because the contract was being
processed in FY 2008 and the contract was relevant to issues raised in this report, it was included in our
sample. OIG consultant contracts were not included in the sample in order to comply with generally
accepted auditing standards relating to independence.




                                                     2
obtained provides a reasonable basis for our findings and conclusions based on the
audit objectives. The audit field work was conducted from January to April 2009.


                              OVERALL EVALUATION

Controls over consultant contracts were generally adequately designed; however,
application of the controls was not enforced. Revisions to LSC’s written procedures are
needed to strengthen internal controls and to clarify existing procedures. While LSC’s
written policies and procedures over the consultant contracting process were generally
adequate, LSC’s consultant contracting practices did not regularly follow those policies
and procedures, resulting in instances of noncompliance.

Specifically, LSC did not follow required internal controls, such as obtaining appropriate
signatures on Contract Approval Forms, issuing purchase orders as prescribed, and
maintaining contract-related records in the proper files. Contrary to LSC policy,
consultant contracts were awarded without either engaging in competition or
documenting the applicable exceptions to the competition requirement. Additionally,
contracts were executed without obtaining the required approvals and/or without
including all required information in contracts. Instances of noncompliance resulted
from LSC officials responsible for consultant contracting actions often following past
contracting practices without regard to whether the actions complied with current written
policies and procedures.

The OIG recommends that LSC Management:

   •   Strengthen the existing internal control structure to assure its current policies and
       procedures are followed,
   •   Make the necessary revisions to Chapter 1 of the Administrative Manual to clarify
       the policies and procedures to be used by all LSC personnel involved in the
       consultant contracting process, and
   •   Implement additional policies and procedures to strengthen internal controls over
       the contracting process to: document the basis for contract decisions, ensure
       adequate acquisition planning, and prohibit duplicate payments to LSC program
       employees.


                                RESULTS OF AUDIT
The results of the audit and corresponding recommendations are addressed in the
following sections of this report:

   I. Internal Controls Over Contracting Actions
   II. Compliance With LSC Contracting Policies and Procedures




                                             3
I. INTERNAL CONTROLS OVER CONTRACT ACTIONS

LSC needs to implement additional procedures to strengthen internal controls over
consultant contract actions. The OIG identified three areas that need improvement. A
discussion of these areas and the corresponding OIG recommendations are included in
this section under the following captions:

          A.      Documenting Contract Decisions
          B.      Evaluating Contract Alternatives
          C.      Establishing Additional Controls Over Contract Payments


      A. Documenting Contract Decisions

LSC may have entered into independent contractor agreements with individuals who
should have been classified as employees under IRS rules. As a result, LSC could be
liable for fines, penalties, and additional payments to workers.

LSC routinely enters into independent contractor agreements with workers to assist
OPP and OCE fulfill their missions. In 1993, the then Office of Monitoring, Audit and
Compliance (MAC) provided its rationale supporting the position that the workers should
be classified as independent contractors. OLA2 stated in memoranda that it could not
agree with MAC’s position. Documentation was not provided as to how the legal issues
raised by OLA were addressed. Also, for two specific agreements reviewed during this
audit, OLA stated concerns as to whether these two workers, under IRS rules, should
be considered employees rather than independent contractors. LSC management
provided its rationale for entering into the agreements. However, the rationale did not
address the concerns raised by OLA.


As a good business practice, especially for organizations receiving public funding, the
basis for decisions on contracts should be fully documented and transparent. LSC’s
Administrative Manual requires that a complete history of the contracting transaction be
included in the file. Documenting in the contract file the comments received in the
proposed contract review process and how these comments are resolved is part of the
complete history.

The FAR provides guidance on the types of information that should be documented in
contract files. While LSC is not required to follow the FAR, it does contain requirements
that LSC could use as best-practice guidance. The FAR requires that “service contracts
should have documentation in the file that has the opinion of legal counsel and a memo
of facts and rationale that supports the contract decision.”


2
    The Office of Legal Affairs (OLA) was previously named the Office of General Counsel.



                                                     4
For the 2-year period ending September 30, 2008, LSC entered into as many as 200
independent contractor agreements that may be more appropriately classified as
employee agreements under IRS rules, based on LSC documented analyses of worker
categories.   According to LSC officials, LSC has entered into these types of
independent contractor agreements for over 15 years.

The issue of determining whether workers should be classified as independent
contractors or employees in accordance with IRS rules is complicated and fact-driven.
IRS guidelines include 20 factors that should be considered in making the
determination. According to the FY 2008 annual financial statement audit of LSC, this
issue has been debated within LSC for years. However, even though the debate has
been continuing and the issue considered unresolved, LSC has continued to make
decisions to classify workers as independent contractors rather than employees without
appropriately documenting the rationale for its decision.

In response to our request for documentation supporting the decision to treat workers
as independent contractors versus employees, LSC management stated that the
decision was made prior to 1993 and apparently reaffirmed in 1993 or shortly thereafter.
LSC provided documented analyses dating back to 1992 that support both sides of the
issue. However, LSC has not been able to provide documentation that specifically
addresses the concerns raised by OLA. Appendix I summarizes the relevant
documentation on this issue dating back to 1992.

LSC management’s practice of not documenting its rationale for making decisions may
have left LSC vulnerable for the payment of fines and penalties to IRS should LSC be
found to have misclassified workers. IRS safe harbor provisions provide relief to
organizations from fines and penalties if the organizations can satisfy a reasonable
basis test. Documenting its decisions could help LSC meet this reasonable basis test.

If LSC incorporated and followed policies and procedures, similar to those in the FAR
that explicitly require the rationale for contract decisions be documented in contract
files, then it would have had greater assurance that its interests were protected and
contract actions were proper. OLA opinions on proposed contract actions as well as
any LSC management decisions to not follow the opinions would have been required to
be documented in the contract files.


   Recommendations
   To ensure that the issue of independent contractor versus employee is resolved and
   contract actions fully documented, the Chief Administrative Officer (CAO) should
   implement the following recommendations:

      Recommendation 1. Ensure that the issue of the status of LSC consultants as
      independent contractors versus employees is resolved expeditiously or file an
      SS-8 with IRS to obtain an administrative determination of the proper




                                           5
        classification of its consultants under IRS rules if the issue cannot be resolved
        quickly through other means.3

        LSC Management Comments.

                LSC has obtained the assistance of outside counsel on a pro
                bono basis to review the classification of consultants used by
                the Office of Program Performance (OPP) and the Office of
                Compliance and Enforcement (OCE).             Based on the
                recommendations of outside counsel, we are making
                modifications to the classification, and expect to have all
                modifications made by October 1, 2009. To the extent that
                OCE and OPP consultants are reclassified as temporary
                employees, many of the recommendations of this audit with
                respect to OPP and OCE consultants will be rendered moot.

        OIG Evaluation of LSC Management Comments:

        Management stated that the modifications to the classification, based on outside
        counsel recommendations, are expected to be made by October 1, 2009. The
        OIG has not been provided a copy of the outside counsel’s opinion nor informed
        of the specific planned modifications. Both the opinion and the modifications
        made will be needed in order for the OIG to fully evaluate management actions
        as well as for LSC management to fully document key decisions and ensure
        future compliance with the law4. Management comments do not specifically
        indicate what actions, if any are going to be taken to remedy those cases where
        individuals may have been misclassified as independent contractors.
        Determining and acting upon the remedial actions are necessary to resolve this
        issue.

        The OIG disagrees with management’s statement that, “To the extent that OCE
        and OPP consultants are reclassified as temporary employees, many of the
        recommendations of this audit with respect to OPP and OCE consultants will be
        considered moot.” The OIG will not consider any of the recommendations moot
        since they apply to all future OCE and OPP consultant contracts. Also,
        recommendations such as documenting key decisions and complying with LSC
        policies and procedures will apply to all future agreements with temporary
        employees.



3
 The January 6, 2009 IPA audit of LSC’s 2008 financial statements includes a similar recommendation.
4
  Reliance on the advice of counsel may provide a “reasonable basis” for a taxpayer’s misclassification of
employees as independent contractors, making the taxpayer eligible to qualify for a safe harbor provision
contained in the Internal Revenue Code. See Select Rehab., Inc. v. United States, 205 F. Supp 2d 376,
383 (M.D. Pa. 2002).



                                                    6
     The OIG considers this recommendation open pending its review of the outside
     counsel’s opinion, the modifications made by management, and the actions taken
     to address previous misclassifications.


       Recommendation 2.       Include a requirement in Chapter 1 of the LSC
       Administrative Manual that the rationale supporting contract decisions be clearly
       documented in contract files, including addressing any concerns raised in the
       review of proposed contract actions.

       LSC Management Comments:

              A requirement will be included in Chapter 1 of the
              Administrative Manual that the rationale supporting contract
              decisions be clearly documented in contract files.

       OIG Evaluation of LSC Management Comments:

       Open. The OIG will review the required language in the Administrative Manual
       before closing this recommendation.


   B. Evaluating Contract Alternatives

LSC does not prepare acquisition plans that address the feasibility of contracting
alternatives. Such plans would provide LSC the assurance that its level of consultant
contracting is appropriate.

While LSC’s Administrative Manual does not require the preparation of an acquisition
plan, the FAR requires agencies to prepare such a plan at least once per year. The FAR
suggests that acquisition planning begin as soon as agencies’ needs for outside
services are identified; preferably well in advance of the fiscal year in which the services
of consultants are necessary. One of the elements of an acquisition plan, according to
the FAR, is the documentation of a statement of need that discusses acquisition
alternatives and any related in-house efforts.

Many LSC consultant contracts are for services that are also carried out by LSC
employees, such as OPP and OCE program visits. In deciding the level of contracting
for these types of services, LSC would be well-served to develop an acquisition plan
that evaluates the extent to which contracting alternatives could be pursued, such as
interchanging LSC staff for consultants.

LSC officials explained that LSC does conduct planning in advance of program visits as
well as planning for the level of consulting needed at the time the LSC budget is being
developed. However, developing a more detailed annual acquisition plan that evaluates




                                             7
alternatives could provide a number of benefits to LSC. Such a plan could accomplish
the following:

   •   Assess on an annual basis the anticipated use of consultants to supplement the
       LSC workforce and determine whether the hiring of staff would be a more
       appropriate alternative for meeting LSC’s needs.

   •   Allow the necessary time to follow LSC’s competition requirements, such as
       developing statements of work and advertising for qualified consultants.

   •   Assess whether in-house alternatives could be used, such as interchanging and
       training OCE and OPP staff for the varied program visits.

   •   Evaluate the degree to which the scope or length of program visits could be
       adjusted to accommodate in-house staffing or how the use of technology could
       assist in reviewing programs and reduce consulting costs.

LSC program visits have often been carried out by LSC employees and consultants.
The program visit in 2008 by OPP to the Legal Services of New York program used
eight OPP staff and eight consultants at a contracting cost of approximately $50,000.
An annual acquisition plan that evaluated alternatives and documented the justification
for the level of contracting on this type of visit as well as other visits could provide LSC
additional assurance that its needs are being met in the most effective, economical, and
timely manner.

       Recommendation 3. To ensure that LSC’s strengthens its controls over
       acquisition planning, the CAO should implement policies and procedures that
       require an annual acquisition plan that, at a minimum, identifies needs, evaluates
       possible alternatives to contracting and documents the level of consultant
       contracting required for the year for OCE and OPP grantee visits.

       LSC Management Comments:

              OPP and OCE have been preparing, as part of the budget
              process, a plan for the number of consultants needed each
              year to assist with program visits. The offices also project
              their needs for any additional consultants as part of their
              projection for the consultant line items of their budgets. The
              Vice President for Programs and Compliance reviews and
              approves these projections. This process produces the
              same information, in another format, as would be produced
              by an acquisition plan for consulting services. Regarding the
              consideration of alternatives to the use of consultants, both
              offices use different consultants depending upon the needs
              of any given program visit. Past consideration of hiring
              additional staff rather than using consultants has determined


                                             8
             that LSC cannot obtain in one staff person the range of skills
             needed for the different visits. Also, on a cost basis, the use
             of consultants has proved more economical than the addition
             of full-time staff. Rather than duplicate the information
             developed in our budget process as part of an acquisition
             plan, OPP and OCE will continue to make annual projections
             for the need for consultants, and LSC Management will
             periodically review the economics and practicality of hiring
             additional staff as an alternative to the use of consultants.

      OIG Evaluation of LSC Management Comments:

      Open. LSC’s alternative approach to resolving this recommendation indicated
      that management would periodically review the economics and practicality of
      hiring additional staff as an alternative to using consultants. The OIG cannot
      adequately evaluate management’s alternative actions because the budget
      information that management refers to in its comments has not been provided to
      the OIG. Once the budget information and the opinion from the outside counsel
      are provided, the OIG will assess management’s corrective actions.


   C. Establishing Additional Controls Over Contract Payments

LSC policy and practice is to prohibit consultants from receiving compensation from any
other LSC-funded source for any hours of a working day for which they are engaged
with LSC. More specifically, LSC requires that LSC grantee employees only be
compensated by LSC while they are on leave without pay from the grantee. While LSC
did not always follow this policy and did not have sufficient controls in place to monitor
and enforce the policy, it has taken positive measures to ensure compliance with the
policy. However, LSC needs to take additional steps to ensure that consultants have
not received double compensation from LSC and its grantees.

OPP and OCE consultant agreements state, “Consultants are not entitled to claim
compensation for services for any hours of a working day for which they have received
compensation from any other LSC-funded source. If your request is paid in violation of
this provision, the Legal Services Corporation will recover such compensation.”

LSC and consultants did not always comply with LSC’s policy to restrict consultants’
compensation. Modifications to common contract language were made to consultant
agreements to allow double compensation.

In 2 of 38 contracts in our sample, the standard language was modified to allow
consultants to receive compensation from LSC and other LSC-funded sources. The
modification stated, in addition to the language noted above, “For purposes of this
paragraph, “compensation from any other LSC-funded source” does not include
payment to a consultant by his or her employer for any accrued leave.” For both



                                            9
modified contracts, Office of Human Resources (OHR) noticed the modification after the
contracts were executed and was able to resolve the issue by executing amended
contracts that contained the standard language. LSC officials stated that they have
been aware of other instances of the standard language being modified for contracts not
in our sample.

LSC has since taken steps to ensure that its compensation policy is being followed.
LSC changed its practice to require that only OHR prepare and modify OPP and OCE
consultant agreement letters. LSC is also requiring that consultants certify to
compliance with the compensation terms. The certification reads:

      I certify that I will be on leave without pay status from (program name) on
      the days I am performing services for LSC pursuant to this contract. I will
      not receive funds from (program name) or any other LSC funded source
      for the days on which I am compensated by LSC.

These steps should strengthen the internal controls to ensure that, in the future,
consultants will comply with the contract term implementing LSC’s policy on
compensation. However, LSC did not have sufficient controls to ensure that, in view of
the confusion surrounding the issue, consultants are not receiving double compensation
from LSC and an LSC-funded source.

   Recommendations
   To ensure that LSC’s policy to preclude the compensation of contractors who also
   receive compensation from an LSC-funded source is being followed, the CAO
   should implement the following recommendations:

      Recommendation 4. Revise the Administrative Manual to include the currently
      used certification clause as required information for consultant contracts.

      LSC Management Comments:

             The Administrative Manual will be revised to include a
             certification clause as required information for OPP and OCE
             consultant contracts.

      OIG Evaluation of LSC Management Comments:

      Open. The OIG will review the required language in the Administrative Manual
      before closing this recommendation.

      Recommendation 5. Develop procedures to ensure that LSC contractors are not
      receiving compensation from an LSC-funded source for any hours of a working
      day for which the contractors are engaged with LSC.




                                          10
      LSC Management Comments:

              LSC will develop a procedure to verify that OPP consultants,
              while performing contractual work for which LSC is paying,
              receive no other compensation from LSC funds.

      OIG Evaluation of LSC Management Comments:

      Open.     While the OIG considers management’s intention to
      establish procedures as responsive, the recommendation is open
      until the new procedures have been developed and implemented
      and evidence of such has been provided to the OIG.


II. COMPLIANCE WITH LSC CONTRACTING POLICIES AND PROCEDURES

LSC needs to improve its compliance with policies and procedures over the consultant
contracting process. Specifically, the OIG identified that:

      A.   Contracts were not awarded competitively;
      B.   Required approvals were not obtained;
      C.   Required basic information was not used in contracts;
      D.   Contract Approval Forms were not properly used;
      E.   Purchase Orders were not always prepared; and
      F.   Contracting records were not properly maintained.

Detailed findings for each area are presented below. Recommendations addressing
these findings are presented at the end of this section.


   A. Contracts Not Awarded Competitively

LSC has established policies and procedures for the competitive award of contracts.
However, for most contracts reviewed, LSC neither competitively awarded the contracts
nor documented the reasons for not using competition as required. By disregarding its
policies and procedures, LSC cannot be assured that contracts are awarded based on
the best value to LSC.

Competition Requirements

According to the LSC Administrative Manual,

      Key to ensuring that LSC funds are expended in an efficient and effective
      manner is the requirement that all services be obtained for the best
      evaluated price and terms. Contracts shall be awarded based on the best
      value to LSC. Best value as used in the manual is the most advantageous



                                           11
       balance of price, quality, and performance achieved through competitive
       procurement methods in accordance with stated selection criteria.
       Competition is an integral component of this requirement.

The LSC Administrative Manual provides a dollar threshold for the type of competition
required.

   •   For contracts for service with a cumulative cost between $3,500 and $10,500,
       solicitation of proposals via the internet, email or telephone contacts is required
       from not fewer than three sources.

   •   For contracts for service with a cumulative cost exceeding $10,500, receipt of at
       least three proposals submitted in response to a request for proposals (RFP) is
       required.

The LSC Administrative Manual allows exceptions to the competitive proposal
procedures. It requires that before any of the exceptions are exercised, the appropriate
LSC official shall clearly document for the file the reasons for the exception and obtain
approval from the President. Similarly, the FAR requires reasons for exceptions be
documented, but the FAR also requires specific information be included in the
justification for the exception. The FAR requires, at a minimum, each justification
include the following information:

   •   A demonstration that the proposed contractor has unique qualifications;
   •   A description of efforts made to ensure that offers are solicited from as many
       potential sources as practicable; and
   •   A determination that the anticipated cost will be fair and reasonable.

Requirements Not Followed

In our sample, 37 of 38 consultant contracts exceeded the threshold for competitive
awards. However, only one of them was awarded competitively and, except for one
contract, LSC was unable to provide us with documented justifications for exceptions to
the competitive proposal procedure.

For the consultants used by OCE and OPP for grantee visits, LSC did advertise for
potential consultants and follow a prequalification process on the potential consultants.
However, the competitive award policies and procedures were not followed in that offers
were not solicited based on stated selection criteria.

In September 2006, OCE advertised in the Washington Post for potential consultants to
submit their resumes and attend an orientation session. After reviewing resumes and
conducting an orientation, OCE developed a list used to make consultant selections.
However, the basis for selection of the final pool of consultants from the orientation
attendees and selections from the final consultant pool for grantee visits were not
documented.


                                            12
OPP had a similar process using email sent to all program Executive Directors and from
the responses, a list of potential consultants was established. The basis for the
selections from this list for the grantee visits was not documented in contract files.

Even though LSC advertised for consultants, the consultant contracts in our sample had
not resulted from full and open competition. The final consultant pool was comprised of
a limited number of consultants that did not submit proposals for LSC to evaluate and
select the best value to LSC; rather, consultants were compensated at a rate set by
LSC Management. By not complying with competition procedures LSC cannot be
assured it is receiving best value as defined in its contracting policies.

LSC officials stated that they did not compete the OCE and OPP consultant contracts
because when Chapter 1 of the Administrative Manual was being revised in 2005, LSC
intended for these types of contracts to be exempt from such competition. According to
these officials, in the editing process the blanket exception was removed. Currently, the
Administrative Manual requires competition for consultant contracts and provides for
exceptions to competition on individual contracts. LSC did not compete 37 of the 38
contracts in our sample, nor was the individualized exception process implemented for
36 of the 37 contracts that were not competed.

Competing contracts helps ensure that LSC receives best value in accordance with its
policies. Fully documenting exceptions to its competition requirements helps improve
internal controls and ensure that the contracting process is not abused.


   B. Required Approvals Not Obtained

LSC policies and procedures set out the required approval process for consultant
contracts. As detailed below, LSC did not follow these policies and procedures for the
consultant contracts in our sample. As a result, LSC may be at risk for issuing contracts
for other than the desired service LSC is seeking and vulnerable to excessive contract
costs.

LSC’s Administrative Manual addresses approvals for consultant contract actions under
Chapter 1, Part III, Paragraph A-5, which states:

      Prior to the award of a contract for a consultant, the originator of the
      contract must present the contract to the Director of the Office of Human
      Resources for review. The Director will then obtain the President’s
      approval for hiring a consultant for the proposed project. If the contract is
      in accord with the standard consultant contract previously approved by the
      Office of Legal Affairs and at the standard rate for consultants, the Director
      of Human Resources shall approve the contract. If the contract deviates
      from the standard contract previously approved by the Office of Legal
      Affairs, the contract must be presented to the Office of Legal Affairs for



                                           13
          review and the procedure in paragraph 4 above [setting out the procedure
          for approval of contracts] shall be followed. If the consultant contract is for
          an amount other than the standard consultant rate, the contract shall be
          presented to the Comptroller for approval.

LSC did not fully comply with the approval requirements in this paragraph.

 •       For 37 of 38 consultant contracts in our sample, the LSC President’s approval was
         not obtained. An LSC official stated that in 2005 the President delegated the
         responsibility for reviewing and approving the consultants used by OPP and OCE
         to the Vice President, Programs and Compliance.              However, the LSC
         Administrative Manual was not updated with this change.

 •       For all consultant contracts in our sample, a standard contract was used for OCE
         contracts and a standard contract was used for OPP contracts. However, it was
         unclear whether and when either contract had been reviewed by OLA. OLA has
         not officially approved a standard consultant contract. Some LSC management
         officials indicated that they were unaware that OLA had not approved the standard
         contracts. According to LSC officials, over time OLA reviewed and commented on
         individual OPP and OCE contracts and at some point a reviewed contract from
         each office was assumed by operating personnel to be the standard OLA-
         approved contract. The assumed OLA-approved consultant contracts were then
         used for all the OPP and OCE contracts in our sample.


Chapter 1, Part III, Paragraph A-5 only requires OLA and the Comptroller review on an
exception basis. For those consulting contracts not meeting these exceptions,
paragraph A-5 does not make reference to other approval requirements in LSC’s
Administrative Manual (as presented below); however, neither does it specifically
exempt consultant contracts from other approval requirements, particularly those that
require a review by OLA or the Comptroller. Chapter 1, Part III of LSC’s Administrative
Manual describes the approval process for all contracts for services in the following
paragraphs:

     •    Paragraph A-1b, Legal Sufficiency Review, states that “The Office of Legal
          Affairs must approve contracts for form and legal sufficiency before they are
          awarded.”
     •    Paragraph A-1c, Comptroller Review, states that “The Comptroller must approve
          all contracts before they are awarded to ensure that the requirements of this
          Chapter have been followed prior to the award of the contract and the
          preparation of a purchase order.”
     •    Paragraph A-4, Approvals of Contracts Prior to Award, states “Prior to the award
          of any contract, the originator of the contract must obtain the review of the Office
          of Legal Affairs, and the Comptroller and the approval of the Director of the
          originating Office for contracts under $3,500, the Vice President or CAO for the
          originating Office of contracts greater than $3,500 and of the President for


                                                14
       contracts greater than $10,500…. Without these approvals the contract cannot
       be awarded and the Comptroller shall not issue a purchase order.”

Proper approvals are necessary controls to protect LSC’s interests. Also, clearly
defined requirements ensure that the approval process is understood and that proper
approvals are obtained.

   C. Required Basic Information Not Used In Contracts

LSC’s Administrative Manual provides a description of the basic information that is
required to be included in all contracts. Much of this required information was not
included in the contracts reviewed. LSC’s practice of not submitting proposed
consultant contracts for OLA’s review may have contributed to this condition. Issuing
contracts without the required basic information leaves LSC vulnerable to
disagreements and additional costs.

LSC’s Administrative Manual’s description of the basic information required for all
contracts for services includes such items as:
   • A clear, complete, and concise description of the specific services or tasks to be
      performed;
   • The cost basis for the contract;
   • A schedule for completion of the work and a statement of the term of the
      contract;
   • A termination clause;
   • Provisions for invoicing and payment, amendments to the contracts,
      indemnifications, severability and applicable laws; and
   • Provisions on subcontracting, confidentiality, and intellectual property rights.

For 32 of 38 of the contracts sampled, at least one or more of the provisions required by
the Administrative Manual were missing from the contract. Examples include:

   •   Fourteen of the 38 contracts sampled stated that consultants were to “participate
       on teams” rather than providing a clear, complete and concise description of the
       specific services to be provided as required.
   •   Thirty of the 38 contracts sampled did not specify when the work has to be
       completed or submitted. Or, when a contract stated that “LSC has to receive a
       written report … within seven (7) days…” it was not specific as to what event
       would trigger the number of days mentioned. The wording was vague and open
       to interpretation.
   •   Contracts did not include the terms of the contract (1 of 38); a termination clause
       (16 of 38); and provisions for amendments (31 of 38); subcontracting,
       confidentiality, and intellectual property rights (31 of 38).
   •   Thirty of the 38 contracts sampled were missing statements regarding
       indemnifications, severability and the applicable laws.
   •   In one case, an email was used as a contract in lieu of a contract with signatures.



                                           15
   •   The OPP and OCE contracts enclosed timesheets for completion and
       submission by the consultants. However, the contracts did not indicate a
       deadline for the submission of these timesheets. As a result, one OPP
       consultant submitted timesheets and expense reports fifteen months after the
       work had been completed. The Comptroller’s office personnel indicated that this
       was not an isolated event; rather timeliness in submission of expense reports has
       been a long-standing issue.

A primary reason for contracts being awarded without required information is that OLA
does not routinely review consultant contracts. The Administrative Manual only requires
that consultant contracts are “in accord with the standard consultant contract previously
approved by OLA.” However, as previously discussed, it is not clear the extent to which
OLA had reviewed the standard consultant contract. According to OLA officials, the use
of a previously executed contract or a form contract, regardless of whether it has been
reviewed in the past, does not provide LSC the same level of protection as a review for
legal sufficiency of a specific proposed contract. Had OLA routinely reviewed the
proposed consultant contracts and identified information that should be included in the
contracts, then LSC could have made revisions to the contracts before they were
awarded.

At our request, OLA reviewed the consultant contracts currently being routinely used by
OCE and OPP. OLA identified the kinds of provisions that it might ordinarily suggest for
consideration in the drafting of such contracts in order to provide maximum protection
for LSC. OLA had recommendations for improvements to the standard contracts
related to 7 of the 12 provisions listed in the Administrative Manual as basic information
to be included in all contracts. OLA also had recommendations for improvements
related to four other provisions not listed in the Administrative Manual dealing with the
following subjects: integration clause; representations and warranties; clarification of
consultants’ relationship with LSC; and anti-competition clause.

Issuing contracts without important basic information that must be included in consultant
contracts could lead to disagreements with the parties involved, which may not
adequately protect LSC’s interests. OLA’s review and evaluation for the contract’s form
and legal sufficiency provides LSC a valuable internal control to ensure required
information is included in consultant contracts.


   D. Contract Approval Form Not Used

LSC policies and procedures require completion of the Contract Approval Form prior to
LSC awarding a contract. This form documents required approvals and the completion
of key steps in the contracting process. LSC officials did not complete the form for the
contracts in our sample and, as a result, lost the benefit this internal control could have
provided.




                                            16
The Contract Approval Form, if properly used, serves as useful internal control over the
contracting process. LSC’s Administrative Manual, Chapter 1, addresses its use in
several places.

   •   Part I, Definitions and Policies, states, “The Contract Approval Form is the form
       that must be executed by the originator of the contract and signed by the General
       Counsel or his Designee and Comptroller prior to LSC awarding a contract.”
   •   Part III, Approval of Contracts Prior to Awards, states “…the originator of the
       contract shall transmit the proposed contract with a completed Contract Approval
       Form…”
   •   The Contract Originator’s Contracting Procedure Outline describes the specific
       requirements for contract originators in using the Contract Approval Form in
       steps 6, 7, and 9 of the Outline.

The Contract Approval Form, which is used for procuring both goods and services,
requires, among other things, the following:
   • Certification that the following required steps have been taken:
           o Use of the General Services Administration Schedule for solicitation of
               bids/proposals;
           o Positive efforts were made to utilize Small and Disadvantaged Business
               Enterprises;
           o A minimum of three proposals were solicited and received (for goods over
               $1,500 or services over $3,500);
           o An RFP was issued to solicit proposals (contract valued at over $10,500);
               or competitive bidding was used to solicit bids (procurement valued at
               over $7,500).
   • An explanation if any of the above certifications are not checked.
   • Initials and date for approval of the Office of Legal Affairs for form and legal
       sufficiency.
   • Initials and date for approval of the Comptroller for procedural sufficiency.
   • Initials and date for approval of the President (if applicable).

LSC did not complete the Contract Approval Form and maintain it as supporting
documentation for any of the consultant contracts in our sample of 38. Although not
described in the Administrative Manual, the practice in OPP and OCE was for the
contract originators to complete a Consultant Request Form and forward it to OHR to
prepare the contract agreement letter. The Consultant Request Form only requires
information necessary to prepare the contract such as the project description,
consultant’s information, duration of the contract, and standard language to be used, but
does not require the same certifications and approvals as the LSC Contract Approval
Form, as described above.

The Contract Approval Form should have been used for all proposed consultant
contracts. Without the use of this internal control, LSC does not have assurance that
required steps and approvals have been performed for consultant contracts, leaving
LSC open to the noncompliance issues noted in previous sections of this report.


                                           17
   E. Purchase Orders Not Prepared

LSC policies and procedures require the issuance of a purchase order once a contract
has been properly executed. LSC did not issue purchase orders for 22 of 38 contracts
in our sample and did not have procedures in place to confirm that contracting
procedures were being followed before purchase orders were issued. As a result, LSC
funds have been committed and expended without ensuring that contracts were
properly executed.

LSC’s Administrative Manual defines a purchase order as a form that serves as the
control for the commitment of funds and the payment of invoices, except for petty cash
and legal representation contracts. The Administrative Manual further states that a
purchase order should only be issued after the Comptroller’s Office has confirmed that
the requirements of chapter 1 of the Administrative Manual have been followed and that
the contract has been properly executed. Payment of invoices before the purchase
order has been approved and a purchase order number assigned is not permitted. See
Appendix II for the paragraphs from the Administration Manual that describe the
purchase order process.

LSC did not issue purchase orders for 22 of 38 contracts in our sample. The
Comptroller’s Office implemented a new accounting system in May of 2008. Under the
previous accounting system only one purchase order was issued out of 23 contracts in
our sample pertaining to that period. Comptroller’s Office staff did complete a Contract
Control Form for contracts issued under the previous accounting system; however, the
form did not provide the same level of control as a purchase order. For example, use of
the Contract Control Form does not result in control numbers being assigned as
required by the Administrative Manual for purchase orders. Under the new accounting
system, purchase orders were issued for all 15 contracts in our sample pertaining to the
period the system was operational.

However, under both accounting systems, contracts were not properly reviewed to
ensure that they were properly executed prior to issuing purchase orders because LSC
did not have a process to do so. Under the new accounting system, once a contract is
awarded, it is forwarded to the accounting clerk to issue a purchase order. The
Comptroller’s Office staff did not review the contracts to ensure compliance with the
requirements of Chapter 1 of the Administrative Manual. The Comptroller’s Office staff
did not verify that approvals were received, that competition was performed, or that
justification for exceptions was documented. The required compliance check was not
performed by Comptroller’s Office staff because of the assumption it was completed
prior to reaching purchase order issuance stage as required by the Administrative
Manual. Under the old accounting system, the verification process was similarly
lacking.




                                          18
Not following the required review procedures prior to issuing purchase orders can
compromise a key internal control for ensuring that contracts are properly executed. By
way of example, two contracts in our sample were executed and paid without the
signature of a representative of OHR as required. Both contracts were executed by
only the approval and signature of the Director of the originating office. Notation on
both contacts indicated that this practice also occurred on other contracts not in our
sample. Reviewing whether contracts have been properly executed before issuing
purchase orders could identify and correct these types of deficiencies.


   F. Contracting Records Not Managed Properly

LSC policies and procedures require contract files be sufficient to constitute a complete
history of the transaction. Contract originators are required to promptly forward
supporting documentation to the Comptroller’s Office upon awarding contracts. LSC did
not follow this policy and procedure for contracts in our sample. As a result, contracting
records were not always complete or available.

The LSC Administrative Manual describes the contracting records that are required to
be forwarded to the Comptroller’s Office for all LSC contracts for services. These
records include a copy of the contract, Contract Approval Form, RFP, copies of
proposals received (as applicable), amendments, and invoices.

For the contracts in our sample, the following contractor records were not included in
the Comptroller’s Office contract files.

   •   Copies of two contracts.
   •   Copies of proposals received on one contract. (As discussed earlier, LSC only
       solicited proposals for one contract in our sample.)
   •   Contract Approval Forms for all contracts in our sample. (As discussed earlier,
       LSC was not using these forms. Other contract request forms that are being
       used by OCE and OPP were not included in the Comptroller’s Office files.)

In addition to the records listed above, the LSC Administrative Manual describes other
procurement and contract records that are required but does not specifically state that
these should be maintained in the Comptroller’s Office contract files. Part I, Paragraph
C-3, Procurement and Contracting Records, states that, “Records relating to
procurement and contracting activities shall include, at a minimum, the basis for
contractor/vendor selection and justification for lack of competitive bidding or proposals
(as applicable). Documentation in the files shall be sufficient to constitute a complete
history of the transaction.” A description of what constitutes “a complete history of the
transaction” is not provided in the Manual.

Without specifying in the Administrative Manual what contracting records should be
maintained and identifying what office should maintain these records, LSC cannot be
assured that contract records are properly maintained. However, looking to other


                                           19
contracting regulations for guidance, the FAR provides examples of the type of contract
files maintained and the records that are normally contained, if applicable, in contract
files5.

    Recommendations
    The CAO should make the following revisions to Chapter 1 of the LSC
    Administrative Manual to clarify the policies and procedures to be used by all LSC
    personnel involved in the consultant contracting process:

       Recommendation 6. Provide a clear description of what should be documented
       in a justification for not awarding consultant contracts competitively including

           •   A demonstration that the proposed contractor has unique qualifications,
           •   A description of efforts made to ensure that offers are solicited from as
               many potential sources as practicable, and,
              A determination that the anticipated cost will be fair and reasonable.

       LSC Management Comments:

               The Administrative Manual will be revised to provide a clear
               procedure for contracting for consultants for OPP and OCE,
               including clear instructions as to when competitive bidding
               must be used and what criteria must be met when
               competitive bidding is not used. A prior version of the
               Administrative Manual had a special provision governing
               OPP and OCE consultant contracts, and we anticipate
               reinstating a revised version of that provision.

       OIG Evaluation of LSC Management Comments

       Open. The OIG will review the required language in the Administrative Manual
       before closing this recommendation.

5
 The FAR lists the following documents as examples of records normally maintained in contract files.
The FAR also identifies the office within which these records are typically maintained:
   • Purchase request, acquisition planning information, and other presolicitation documents
   • Evidence of availability of funds
   • The list of source solicited
   • The organization’s estimate of contract price
   • A copy of the solicitation and all amendments thereto
   • A copy of each offer or quotation
   • Source selection documentation
   • Justification for the type of contract
   • Required approvals of award and evidence of legal review
   • Notice of Award
   • The original of copy of the signed contract or award, all contract modifications, and documents
      supporting modifications executed by the contracting office.



                                                  20
Recommendation 7. Require that all proposed consultant contracts be approved
by OLA and the Comptroller’s Office.

LSC Management Comments:

       The Administrative Manual currently requires that all
       contracts be reviewed by the Office of Legal Affairs (OLA)
       and the Comptroller. For OPP and OCE contracts, a
       standard contract is used. We will assure that OLA and the
       Comptroller approve the standard contract and that any
       modifications to the standard contract are approved by the
       appropriate official.

OIG Evaluation of LSC Management Comments:

Open. Once a standard contract, approved by OLA and the Comptroller, is
modified, it is no longer a standard contract and should go through the
appropriate review process. The OIG considers recommendation 7 open until
the standard contracts are properly approved and the OIG reviews any
necessary revisions made to the Administrative Manual.


Recommendation 8. Evaluate and consider adding to the description of required
information for all contracts provisions dealing with integration clause;
representations and warranties; clarification of consultants’ relationship with LSC;
and anti-competition clause.

LSC Management Comments:

       LSC will review the additional four contract provisions
       identified and will add those found to be relevant.

OIG Evaluation of LSC Management Comments:

Open. The OIG will review the clauses found to be relevant by management
before closing this recommendation.

Recommendation 9. Require that the Contract Approval Form be used for all
proposed consultant contracts.

LSC Management Comments:

       The Administrative Manual requires that the contract
       approval form be used for all contracts. The revised
       Administrative Manual provision for OPP and OCE
       consultant contracts will address this issue.



                                     21
   OIG Evaluation of LSC Management Comments:

   Open.    The OIG will review the required language in the
   Administrative Manual before closing this recommendation

   Recommendation 10. Require that a review process be implemented that
   ensures contracts are properly executed before purchase orders are issued.

   LSC Management Comments:

         The Comptroller’s Office has instituted a new procedure for
         purchase orders. That process includes a provision that
         contracts be reviewed for proper executive prior to purchase
         orders being written.

   OIG Evaluation of LSC Management Comments:

   Closed. Management actions taken address the issues raised.

   Recommendation 11. Specify the consultant contract-related records that need
   to be maintained in contract files and identify the office(s) that should maintain
   these records.

   LSC Management Comments:

        We will specify in the Administrative Manual which consultant
        contract records must be maintained and where they are to be
        maintained.

   OIG Evaluation of LSC Management Comments:

   Open. The OIG will review the required language in the Administrative Manual
   before closing this recommendation.

The CAO should implement the following recommendations to strengthen an internal
control structure that assures LSC consultant contracting policies and procedures
are followed:

   Recommendation 12. Provide training on the policies and procedures in
   Chapter 1 of the LSC Administrative Manual (after it has been revised) to ensure
   that all LSC personnel involved in the consultant contracting process understand
   their responsibilities.




                                       22
      LSC Management Comments:

             LSC will provide training to all employees on the revised
             Administrative Manual.

      OIG Evaluation of LSC Management Comments:

      Open. The OIG will review the revised Administrative Manual and training plans
      before closing this recommendation.

      Recommendation 13. Require periodic reporting to the LSC President of all
      consultant contracts executed along with the Comptroller’s certification that
      procedural sufficiency has been attained to ensure that all policies and
      procedures in Chapter 1 of the LSC Administrative Manual are being followed.

      LSC Management Comments:

           We will adopt a reporting requirement for consultant contracts
           that includes a Comptroller certification and notice to the
           President of the Corporation.

      OIG Evaluation of LSC Management Comments:

      Open. The OIG will review the adopted reporting requirement for consultant
      contracts before closing this recommendation.


III. OIG EVALUATION OF LSC MANAGEMENT COMMENTS

Management agreed to take action on all recommendations. The OIG was not able to
fully evaluate all management actions pending receipt of information, such as the
opinion of outside counsel, and details regarding planned management actions. The
OIG considers all recommendations open pending receipt and evaluation of additional
information and management actions, with the exception of recommendation 10, which
the OIG considers closed because appropriate management actions were completed.

The OIG’s evaluation of management comments for each recommendation can be
found in the body of the final report following the associated recommendation and
management comments sections. The full text of management’s comments can be
found at Appendix III.

Management’s comment memorandum (Appendix III) also included lead-in paragraphs
before addressing each recommendation and stated that the OIG “…audit report
questions no costs….” While accurate, questioned cost relates to a past expenditure of
funds, whereas the relevant cost issue is not what was spent in the past, but what must
be spent in the future as a corrective action. For instance temporary LSC employees



                                          23
may have been misclassified as independent contractors, resulting in a significant
contingent liability, i.e., LSC may have to expend funds, to fully resolve any
misclassification.    LSC may owe Federal payroll taxes, local taxes such as
unemployment, fines and penalties6, and employee benefit payments to the individuals
who may have been misclassified. As part of resolving the issue of misclassification,
LSC must determine how to correct the errors made in the past, determine what period
of time needs to be covered, and determine the associated costs. These costs need to
be recorded as a liability and could be material to the financial statements. Also,
because these amounts may be significant, LSC management needs to determine the
impact on its budget and what if any adjustments need to be made.




6
 Because LSC has been aware of this issue since the early 1990’s but has not resolved it, LSC may not
qualify for the “safe harbor” provisions of tax laws, which waive fines and penalties.


                                                 24
                                                                                       Appendix I

                               Summary of Documentation
                         Independent Contractor - Employee Issue

The following summary describes the relevant documentation reviewed by the OIG on
the issue of independent contractor versus employee for a) program visits and b) two
specific contracts. The summary shows that documented analyses dating back to 1992
support both sides of the issue; however, there is no definitive documentation
supporting the decisions to enter into these types of agreements given the concerns
raised by OLA.

Program Visits

In late 1992 and 1993, the then Office of Monitoring, Audit and Compliance (MAC) and
the then Office of General Counsel (OGC) issued a series of memoranda with their
analyses on this issue7. MAC, the LSC unit using the workers, supported the position
that the workers should be classified as independent contractors (memoranda dated
2/9/1993 and 6/14/1993). OGC, the LSC legal unit, supported the position that a
number of the workers should be classified as employees (memoranda dated
12/21/1992, 3/25/1993 and 7/19/1993). The latest memorandum in the series was
issued by OGC and addressed MAC concerns and reiterated its position by stating:

           For clarification purposes, the conclusion stated in your memorandum
           of February 9, 1993, and restated in your June 14, 1993 memorandum
           that all LSC consultants are independent contractors cannot be
           concurred in by OGC based on the facts provided and application of
           applicable law (common and statutory) to those facts.

           You have also expressed concern about the suggestion in the
           March 25, 1993, memorandum that LSC consider whether it is
           desirable to file a Form SS-8 with the IRS to obtain an answer
           regarding the tax status of the consultants. In OGC’s opinion this
           suggestion, i.e., to follow the administrative procedure provided by the
           IRS, is appropriate especially in light of LSC’s continuing uncertainty
           about whether to treat the consultants as employees or as independent
           contractors.

LSC decided to continue issuing independent contracts and did not seek an answer
from IRS. LSC has not been able to provide us documentation to support its rationale
for the decisions given the concerns raised by OCC.



7
 The Office of General Counsel (OGC) provided legal advice/opinions on legal matters as counsel to the
Corporation. The Office of Monitoring, Audit, and Compliance (MAC) was considered part of the client
and its advice/opinions did not carry the same weight as OGC’s.


                                                  25
In 1995, an OIG report recommended that, “The Corporation review its practices with
respect to classification of independent contractors to ensure that such practices comply
with the Internal Revenue Code and the Corporation’s policies.”

LSC’s response to the report stated, “With respect to Recommendation 4, Management
also asked outside tax counsel to review the Report’s findings with respect to the
classification of the Director of OPS. Tax counsel has recommended that the Director
be reclassified as an employee for tax purposes……Management will also consult tax
counsel with regard to classification of other consultants.”

LSC could not provide us with documentation concerning its consultation with tax
counsel for the “other consultants.” Documentation to support LSC’s rationale for
decisions on this issue should have included this tax counsel’s opinion.

In 2006, OLA prepared a 20-page analysis of this issue. The analysis stated as follows:

          With respect to OCE compliance visit consultants, OPP program visit
          consultants and OPP competition on site evaluators and grant
          reviewers (other than independent review panel members), it is difficult
          to offer a conclusive opinion, but it appears that weighing all of the
          facts against the IRS criteria could reasonably lead to determination
          that these consultants generally are more properly classified as
          temporary employees and should be treated as such by LSC for tax
          purposes.

Since this analysis was prepared in 2006, LSC has continued to award independent
contracts to the consultants described in the analysis. LSC has not been able to
provide documentation to support its rationale for the decisions, especially important
given the concerns raised by OLA.

Two specific contracts

As mentioned earlier, most proposed consultant agreements are not provided to OLA
for review. Two specific proposed consultant agreements that were provided to OLA for
review included a proposed contract with a former LSC employee for conference
planning and facilitation services and a proposed contract with a former program
employee with 32 years of legal experience to review reports from compliance and
program quality visits. OLA, as well as others (the Comptroller on one and the Director,
OHR on another), raised concerns in emails as to whether the consultants should be
classified as employees rather than independent contractors. Subsequent to OLA’s
email raising concerns, LSC management did cite in emails its reasons for classifying
both as independent contractors but they were not forwarded to OLA to determine
whether OLA would concur based on the reasons cited.




                                           26
The two contracts were issued without documentation as to whether OLA had
concurred with the classification of the workers as independent contractors based on
the additional information cited in emails. (Had OLA received this information at the
time it would not have concurred.) LSC management made the decision to classify the
workers as independent contractors and explained the reasons in emails. However, for
both of these contracts, LSC documentation did not support its rationale for the
decisions given the specific concerns raised by OLA.




                                         27
                                                                           Appendix II
                            Purchase Order Requirements

The following paragraphs from the Administrative Manual, Chapter 1, describe the
purchase order process.

   •   Part I paragraph C-5, 5. Purchase Orders, “The Office of Financial Services is
       responsible for preparing and executing all purchase orders. When…services
       rendered in accordance with the provisions of a purchase order and the invoice is
       verified and approved, the invoice will be processed for payment. For…contracts
       for which a purchase order is required, no order will be placed nor will any
       invoice be paid until the purchase order has been approved and a purchase
       order number assigned. The Office of Financial Services shall not issue a
       purchase order for contracts until after the required Office of Legal Affairs (OLA)
       approval for form and legal sufficiency has been obtained.”

   •   Part III paragraph A-1c, Comptroller Review, “The Comptroller must approve all
       contracts before they are awarded to ensure that the requirements of this
       Chapter have been followed prior to the award of the contract and the
       preparation of a purchase order. Such approval must be provided in writing by
       notation on the Contract Approval Cover Sheet.”

   •   Part III paragraph A-4a, Awarding of Contracts, “Upon the awarding of a contract
       by an authorized individual, a copy of the contract, along with a copy of the
       Contract Approval Form, and the RFP and copies of the proposals received (as
       applicable), must be forwarded promptly to the Office Of Financial Services. The
       Comptroller shall review contracts to ensure they are properly executed. Upon
       confirmation that a contract has been properly executed, the Comptroller’s Office
       shall execute a purchase order.”




                                           28
                                                                                                  Appendix Ill
                                                                              Legal Sewices Carpontion
                                                                           America's Partner For Equal lustlce




                                     MEMORANDUM

 TO:            Jeffrey Schanz
                Inspector General

 FROM:          Helaine M. Barnett    k-FJ1_5
                President

 DATE:          June 23,2009

 SUBJECT: Response to OIG Draft Report - Audit of Consultant Contracts


        Thank you for the opportunity to review the Office of the Inspector General (OIG) draft
report entitled "Audit of Legal Services Corporation's Consultant Contracts" submitted to LSC
management on May 26,2009. Following is management's response to that draft.

        LSC's executive leadership is committed to the efficient and effective management of the
Corporation, including using appropriate procedures for contracting with consultants. We
appreciate your review of the contracting practices and procedures currently in use and recognize
the need for improvements in both. LSC began revising its Administrative Manual last year in
recognition that the procedures in the manual need to be updated, and your report has further
highlighted that need. We will incorporate in the revised manual the necessary changes to
respond to your report, and we will train staff on the new procedures and the importance of
following them. We are pleased to note that your audit report questions no costs, and we
believe that our practices, while needing improvement, have delivered efficient and effective
contractual services for the Legal Services Corporation.

Responses to Recommendations

       Thirteen recommendations for improving our contracting with consultants are listed in
your audit. The following are LSC Management's responses to each recommendation.

Recommendation 1: LSC has obtained the assistance of outside counsel on apro bono basis to
review the classification of consultants used by the Office of Program Performance (OPP) and
the Office of Compliance and Enforcement (OCE). Based on the recommendations of outside
counsel, we are making modifications to the classification, and expect to have all modifications
made by October 1,2009. To the extent that OCE and OPP consultants are. reclassified as
temporary employees, many of the recommendations of this audit with respect to OPP and OCE
consultants will be rendered moot.

Recommendation 2: A requirement will be included in Chapter 1 of the Administrative Manual
that the rationale supporting contract decisions be clearly documented in contract files.
 MEMORANDUM                                                                                     Page 2


  Recommendation 3: OPP and OCE have been preparing, as pan of the budget process, a plan
  for the number of consultants needed each year to assist with program visits. The offices also
 project their needs for any additional consultants as part of their projection for the consultant line
 items of their budgets. The Vice President for Programs and Compliance reviews and approves
 these projections. This process produces the same information, in another format, as would be
 produced by an acquisition plan for consulting services. Regarding the consideration of
 alternatives to the use of consultants, both offices use different consultants depending upon the
 needs of any given program visit. Past consideration of hiring additional staff rather than using
 consultants has determined that LSC cannot obtain in one staff person the range of skills needed
 for the different visits. Also, on a cost basis, the use of consultants has proved more economical
 than the addition of full-time staff. Rather than duplicate the information developed in our
 budget process as part of an acquisition plan, O P P OCE     ~ ~will continue to maie annual
 projections for the need for consultants, and LSC Management will periodically review the
 ecoiomics and practicality of hiring additional staff as an alternative to the use of consultants.

 Recommendation 4: The Administrative Manual will be revised to include a certification clause
 as required information for OPP and OCE consultant contracts.

Recommendation 5: LSC will develop a procedure to verify that OPP consultants, while
performing contractual work for which LSC is paying, receive no other compensation from LSC
funds.

Recommendation 6: The Administrative Manual will be revised to provide a clear procedure
for contracting for consultants for OPP and OCE, including clear instructions as to when
competitive bidding must be used and what criteria must be met when competitive bidding is not
used. A prior version of the Administrative Manual had a special provision governing OPP and
OCE consultant contracts, and we anticipate reinstating a revised version of that provision.

Recommendation 7: The Administrative Manual currently requires that all contracts be
reviewed by the Office of Legal Affairs (OLA) and the Comptroller. For OPP and OCE
contracts, a standard contract is used. We will assure that OLA and the Comptroller approve the
standard contract and that any modifications to the standard contract are approved by the
appropriate official.

Recommendation 8: LSC will review the additional four contract provisions identified and will
add those found to be relevant.

Recommendation 9: The Administrative Manual requires that the contract approval form be
used for all contracts. The revised Administrative Manual provision for OPP and OCE
consultant contracts will address this issue.

Recommendation 10: The Comptroller's Office has instituted a new procedure for purchase
orders. That process includes a provision that contracts be reviewed for proper execution prior to
purchase orders being written.

Recommendation 11: We will specify in the Administrative Manual which consultant contract
records must be maintained and where they are to be maintained.
MEMORANDUM                                                                               Page 3


Recommendation 12: LSC will provide training to all employees on the revised Administrative
Manual.

Recommendation 13: We will adopt a reporting requirement for consultant contracts that
includes a Comptroller certification and notice to the President of the Corporation.
